U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Edward McCain v. United States, No. 20-7410
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 8, 2021.
The government’s response is now due, after one extension, on June 21, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 21, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7410
MCCAIN, EDWARD
USA

ERIC JOSEPH BRIGNAC
ASSISTANT FEDERAL PUBLIC DEFENDER
150 FAYETTEVILLE STREET
SUITE 450
RALEIGH, NC 27601
919-856-4236
ERIC_BRIGNAC@FD.ORG

